Report No. D-2007-072       March 20, 2007




    Attestation of the Defense Logistics
    Agency's Contingent Legal Liability
         Audit Readiness Assertion
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DLA                   Defense Logistics Agency
                Department of Defense Office of Inspector General
Report No. D-2007-072                                                         March 20, 2007
   (Project No. D2006-D000FJ-0232.000)

          Attestation of the Defense Logistics Agency’s Contingent
                 Legal Liability Audit Readiness Assertion

                                  Executive Summary

Who Should Read This Report and Why? Personnel who prepare and rely on the
Defense Logistics Agency financial statements should read this report. It discusses the
financial reporting of Defense Logistics Agency contingent legal liabilities.

Background. The Defense Logistics Agency is the largest combat support agency in
DoD, providing worldwide logistics support in both peacetime and wartime to the
military services as well as several civilian agencies and foreign countries. Contingent
legal liabilities include existing conditions, situations, or sets of circumstances involving
uncertainty as to a possible loss to an entity.

The Statement of Federal Financial Accounting Standards No. 5, “Accounting for
Liabilities of the Federal Government,” as amended by No. 12, “Recognition of
Contingent Liabilities Arising from Litigation,” classifies the likelihood of a loss as
“probable” (more likely than not to occur), “reasonably possible” (more than “remote”
but less than “probable”), or “remote” (slight chance of occurring). The classification
determines whether contingent legal liabilities are recorded, disclosed, or not reported in
the financial statements.

The Defense Logistics Agency’s loss contingencies arise primarily from litigation,
claims, and assessments for events such as property damage, environmental claims, and
contractual disputes. The responsible legal office attorney assigns a monetary value to
each case based on the merits of the legal matter and the attorney’s professional
judgment. At the end of each reporting period, the total value of all probable cases is
reported as a liability, and the total value of all reasonably possible cases is disclosed in
the notes to the financial statements.

On December 29, 2005, the Defense Logistics Agency asserted that its contingent legal
liability balance sheet line item was ready for audit. Based on this assertion, the Office
of the Under Secretary of Defense (Comptroller) Deputy Chief Financial Officer
requested that we perform an assessment and audit. We performed it as an examination
engagement.

Results. In our opinion, management’s assertion that the Defense Logistics Agency
contingent legal liabilities line item is fairly presented and ready for audit, presents, in all
material respects, an accurate representation as of September 30, 2006 (see the enclosed
Independent Auditor’s Report for details).
Table of Contents

Executive Summary               i

Independent Auditor’s Report    1


Appendixes
     A. Scope and Methodology   2
     B. Report Distribution     4
Appendix A. Scope and Methodology
   We performed this examination from July 2006 through March 2007. The
   examination was performed in accordance with generally accepted government
   auditing standards, which reflect the financial audit and attestation standards
   established by the American Institute of Certified Public Accountants, as
   implemented by the Government Accountability Office/President’s Council on
   Integrity and Efficiency “Financial Audit Manual.” For purposes of this
   engagement, we attested to the audit readiness of the Defense Logistics Agency
   (DLA) contingent legal liabilities.

   We performed the examination at DLA Headquarters and field locations,
   including the Defense Distribution Center, the Defense Reutilization and
   Marketing Service, the Defense Supply Center Columbus, the Defense Supply
   Center Philadelphia, and the Defense Supply Center Richmond. At these
   locations, we interviewed DLA financial management and legal officials involved
   in the financial reporting of contingent legal liabilities. We also reviewed the
   supporting documentation of a number of pending cases.

   We reviewed applicable generally accepted accounting principles including:
   Statement of Federal Financial Accounting Standards No. 5, “Accounting for
   Liabilities of the Federal Government,” September 1995, as amended by
   Statement of Federal Financial Accounting Standards No. 12, “Recognition of
   Contingent Liabilities Arising from Litigation,” December 1998. These standards
   classify the likelihood of a loss as “probable” (more likely than not to occur),
   “reasonably possible” (more than “remote” but less than “probable”), or “remote”
   (slight chance of occurring). The classification determines whether contingent
   legal liabilities are recorded, disclosed, or not reported in the financial statements.

   We analyzed internal controls associated with the legal cases reported in the DLA
   Case Management System for the end of the third quarter of FY 2006. We
   reviewed 12 cases categorized as “probable” and 9 cases categorized as
   “reasonably possible.” We also judgmentally selected cases categorized as
   “remote” and “unable to determine” and interviewed contracting officials in order
   to test the completeness of the contingent legal liability line item.

   We conducted substantive testing on 100 percent of the 11 cases categorized as
   “probable” and the 12 cases categorized as “reasonably possible” as of
   September 30, 2006. The estimated liability of the “probable” cases ranged from
   $10.8 million to $18.5 million. The estimated liability of the “reasonably
   possible” cases ranged from $27 thousand to $11.3 million.

   Use of Computer-Processed Data. DLA contingent legal liabilities are reported
   and tracked in the DLA Case Management System. The DLA Case Management
   System is a stand-alone management information system used by DLA General
   Counsel to track data such as case number, dates when a case was opened and
   closed, and the likelihood of cash outflow. At the end of each reporting period, a
   DLA Case Management System report is used to support a journal voucher for the
   contingent legal liability value reported on the DLA financial statements. There
   has never been a Government Accountability Office “Financial Information


                                          2
    Security Controls Audit Manual” audit conducted on the DLA Case Management
    System. In addition, the DLA Case Management System is not certified and
    accredited in accordance with DoD Instruction 5200.4 "DoD Information
    Technology Security Certification and Accreditation Process"
    December 30, 1997, or the “DoD Information Assurance Certification and
    Accreditation Process,” July 6, 2006. Therefore, we did not rely on the
    information system controls and reviewed 100 percent of the cases supporting the
    contingent legal liability line item balance.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Financial Management high-risk area.


Prior Coverage
    No prior coverage has been conducted on the financial reporting of DLA
    contingent legal liabilities during the last 5 years.




                                        3
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          4
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                       5
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Amy J. Frontz
Anthony C. Hans
Kevin C. Currier
Brian M. Stumpo
Bethany L. Hartman
Ellen Kleiman-Redden
Karen Bennett
